No. 20-107
In the Supreme Court of the United States

Cedar Point Nursery and Fowler Packing Co.,

Petitioners,
v.

Victoria Hassid, in her official capacity as
Chair of the California Agricultural
Labor Relations Board, et al.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the Brief of the
American Federation of Labor and Congress of Industrial Organizations as Amicus
Curiae in Support of Respondents was prepared using Century 12-point typeface
and contains 6,332 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d). This certificate was prepared in reliance on the
word count function of the word-processing system used to prepare the document.

I declare under penalty of perjury that the foregoing is true and correct.

 

815 Sixteenth Street, NW
Washington, DC 20006

Executed on February 12, 2021
